<html>
<title> - THE WAR ON TERRORISM: HOW PREPARED IS THE NATION'S CAPITAL?</title>
<body><pre>[Senate Hearing 109-171]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-171
 
      THE WAR ON TERRORISM: HOW PREPARED IS THE NATION'S CAPITAL?

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                 THE FEDERAL WORKFORCE AND THE DISTRICT
                        OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 14, 2005

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                    U.S. GOVERNMENT PRINTING OFFICE
23-158                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                      Trina D. Tyrer, Chief Clerk


   OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                  GEORGE V. VOINOVICH, Ohio, Chairman
TED STEVENS, Alaska                  DANIEL K. AKAKA, Hawaii
NORM COLEMAN, Minnesota              CARL LEVIN, Michigan
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

                   Andrew Richardson, Staff Director
              Richard J. Kessler, Minority Staff Director
            Nanci E. Langley, Minority Deputy Staff Director
                       Tara E. Baird, Chief Clerk
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Voinovich............................................     1
    Senator Akaka................................................     3

                               WITNESSES
                        Thursday, July 14, 2005

William O. Jenkins, Jr., Director, Homeland Security and Justice 
  Issues, U.S. Government Accountability Office..................     5
George W. Foresman, Assistant to the Governor of Virginia for 
  Commonwealth Preparedness, Commonwealth of Virginia............     7
Dennis R. Schrader, Director of the Governor's Office of Homeland 
  Security in the State of Maryland..............................     9
Thomas J. Lockwood, Director, Office of National Capital Region 
  Coordination, U.S. Department of Homeland Security.............    10
Edward D. Reiskin, Deputy Mayor for Public Safety and Justice for 
  the District of Columbia.......................................    12

                     Alphabetical List of Witnesses

Foresman, George W.:
    Testimony....................................................     7
    Prepared joint statement by Edward D. Reiskin, George W. 
      Foresman, and Dennis R. Schrader with an attachment........    33
Jenkins, William O., Jr.:
    Testimony....................................................     5
    Prepared statement...........................................    21
Lockwood, Thomas J.:
    Testimony....................................................    10
    Prepared statement...........................................    64
Reiskin, Edward D.:
    Testimony....................................................    12
    Prepared joint statement by Edward D. Reiskin, George W. 
      Foresman, and Dennis R. Schrader with an attachment........    33
Schrader, Dennis R.:
    Testimony....................................................     9
    Prepared joint statement by Edward D. Reiskin, George W. 
      Foresman, and Dennis R. Schrader with an attachment........    33

                                Appendix

Questions and Responses from:
    Mr. Jenkins..................................................    68
    Combined responses from Edward D. Reiskin, George W. 
      Foresman, and Dennis R. Schrader...........................    74
    Mr. Lockwood.................................................    85


      THE WAR ON TERRORISM: HOW PREPARED IS THE NATION'S CAPITAL?

                              ----------                              


                        THURSDAY, JULY 14, 2005

                                       U.S. Senate,
          Oversight of Government Management, the Federal  
       Workforce and the District of Columbia Subcommittee,
                            of the Committee on Homeland Security  
                                         and Governmental Affairs, 
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:30 a.m., in 
room SD-562, Dirksen Senate Office Building, Hon. George V. 
Voinovich, Chairman of the Subcommittee, presiding.
    Present: Senators Voinovich, Akaka, and Dayton.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. The Subcommittee will please come to 
order.
    Good morning, I want to thank you for joining us today. 
This Subcommittee which has authorizing jurisdiction over the 
District of Columbia meets today to examine an issue of crucial 
importance to the Nation, the Washington region, and to each 
person present in this room: How prepared is the Nation's 
Capital to respond to a terrorist attack?
    This hearing was requested by my friend and colleague, 
Senator Akaka, and we have been planning to hold this hearing 
for some time. I want to make it clear that it was not 
triggered as a result of what happened in London recently.
    The Office of the National Capital Region Coordination 
within the Department of Homeland Security was established in 
the Homeland Security Act of 2002. The Office was created to 
oversee and coordinate Federal programs and domestic 
preparedness initiatives for State, local, and regional 
authorities. Since September 11, 2001, over $500 million have 
been directed toward the region to ensure that preparedness 
efforts across the region are fully coordinated, appropriately 
integrated, consistent, non-duplicative, effective, and 
efficient.
    Today we are holding this hearing to ensure that the Office 
of the National Capital Region Coordination, and the other 
responsible agencies of the Capital Region are adequately 
performing their roles. Various events and news reports have 
repeatedly highlighted the problems with the Office's 
distribution of funds and the lack of coordination in the 
region's response capacity.
    Because of votes that are going to be starting at 10 
o'clock, I am going to ask that the rest of my statement be 
included in the record.
    [The prepared statement of Senator Voinovich follows:]
            OPENING PREPARED STATEMENT OF SENATOR VOINOVICH
    Good morning. Thank you for joining us. Today, this Subcommittee, 
which has authorizing jurisdiction over the District of Columbia, meets 
to examine an issue of crucial importance to the Nation, the Washington 
region, and to each person present in this room: How prepared is the 
Nation's Capital to respond to a terrorist attack? This hearing was 
requested by my friend and colleague, Senator Akaka, and we have been 
planning to hold it for some time.
    The National Capital Region is home to the District of Columbia, 
the three branches of the Federal Government, two States, 12 local 
jurisdictions, and over four million Americans. The White House, the 
Capitol, the Pentagon, and countless Federal buildings and monuments 
throughout the region are as much the symbol of liberty, our history 
and values as a Nation as they are the centers of its governance.
    On September 11, 2001, the Region came under a terrorist attack 
from passenger airliners transformed into deadly weapons. One slammed 
into the Pentagon. The other, United Flight 93, headed toward the 
Capital Region, but never reached its mark. The heroism of the 
passengers aboard thwarted the attack, sacrificing their lives in the 
process. Though we will never know whether the terrorists aimed for the 
White House or the Capitol Dome, the intended consequence is clear.
    A little more than a month later, the region experienced an anthrax 
attack that took five lives nationwide, required the testing of 
thousands of mailroom employees throughout the region, and shuttered 
buildings around the city for months. I remember vividly the 
uncertainty as I was forced to leave my office in the Hart buildings 
for 4 months while it was decontaminated.
    Since then we have lived with the knowledge that the National 
Capital Region is a top target for terrorists. The recent barbaric 
attacks in London serve as a stark reminder that we have deadly 
enemies, intent on striking at the heart of our society.
    Now, as you look around the Capitol complex, you see numerous road 
closing, cement jersey barriers, the construction on the new Capitol 
Visitor Center, and thousands of green bollards around every building, 
to protect us from terrorist. Sadly, vigilance must be the order of the 
day.
    The Office of the National Capital Region Coordination, within the 
Department of Homeland Security, was established in the Homeland 
Security Act of 2002. The Office was created to oversee and coordinate 
Federal programs and domestic preparedness initiatives for State, local 
and regional authorities. Since September 11, over $500 million have 
been directed toward the region to ensure that preparedness efforts 
across the region are fully coordinated, appropriately integrated, 
consistent, non-duplicative, efficient and effective.
    Today, we are holding this hearing to ensure that the Office of the 
National Capital Region Coordination, and the other responsible 
agencies of the Capital Region, are adequately performing their roles. 
Various events and news reports have repeatedly highlighted the 
problems with the Office's distribution of funds and the lack of 
coordination in the region's response capacity. When a Cessna airplane 
flew into restricted airspace, forcing an evacuation of the White House 
and the Capitol, it was later learned that neither Mayor Williams, nor 
the District of Columbia emergency services, were informed in a timely 
fashion.
    Earlier this spring, media stories highlighted the mismanagement of 
Federal homeland security money, such as: $100,000 to enroll District 
of Columbia sanitation workers in public speaking courses, and $100,000 
to develop a song to teach children about emergency preparedness.
    Last week, The Washington Times reported that the District of 
Columbia failed to keep track of millions of dollars in Federal 
bioterrorism funds that it has received since 1999, leading to improper 
expenditures and spending delays.
    In a tight budget, with demands for homeland security funding that 
far exceeds the capacity of this Nation to furnish it, it is 
discouraging and frustrating to learn that coordination is lacking and 
that higher homeland security priories, such as equipment for first 
responders, is neglected in lieu of the above expenditures. Stronger 
management and accountability mechanisms must be implemented to avoid 
these mistakes in the future.
    In June 2004, GAO released a report which recommended that the 
Office of the National Capital Region Coordination work with local 
jurisdictions to develop a coordinated strategic plan to establish 
goals and priorities, monitor the plan's implantation, identify and 
address gaps in emergency preparedness, and evaluate the effectiveness 
of expenditures by conducting assessments based on established 
standards and guidelines.
    One of the greatest concerns noted in the report was the inability 
of the Office to account for the funds that were distributed. I am also 
concerned that despite GAO recommendations, a strategic plan has not 
been released. It is contrary to good management practices to proceed 
large expenditures without a strategic plan. We must do better.
    In closing, I would like to take a minute to acknowledge the hard 
work and dedication of those that work to secure this region every day: 
The emergency responders, fire fighters, local and Federal law 
enforcement, and military personnel. Thank you. It is my hope that 
today we will begin to identify and eliminate any hindrance to the 
capacity of these people to get the job done. To this end, I offer 
whatever assistance I can.
    I now yield to the Ranking Member of the Subcommittee, my good 
friend Senator Akaka, for an opening statement.

    Senator Voinovich. I would now like to call on Senator 
Akaka, my colleague and the individual who encouraged me to 
hold this hearing. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. I join 
you in welcoming our witnesses this morning, and I am going to 
be brief.
    I am grateful to--and I really mean this--my friend, the 
Chairman, for working with me and the Subcommittee in 
scheduling today's hearing, which will analyze how well 
prepared the National Capital Region is for a major emergency.
    I believe that the NCR with its 12 jurisdictions in 
Maryland, Virginia, and the District of Columbia, can serve as 
a coordination model and a test bed for other parts of the 
country in implementing homeland security policies.
    Our focus today is twofold. First we will look at how well 
the region's State and local governments are coordinating 
amongst themselves and with the Federal Government. Second, we 
will examine whether Federal homeland security dollars are 
being spent wisely.
    I have a longer statement that I would ask consent to be 
made part of the record, Mr. Chairman.
    Senator Voinovich. Without objection.
    [The prepared statement of Senator Akaka follows:]

                  PREPARED STATEMENT OF SENATOR AKAKA

    Thank you Chairman Voinovich. I join you in welcoming our panel of 
witnesses. I am grateful to my friend, the Chairman, for working with 
me in scheduling today's hearing, which will analyze how well prepared 
the National Capital Region (NCR) is for a major emergency.
    I believe that the NCR--with its twelve jurisdictions in Maryland, 
Virginia, and the District of Columbia--can serve as a coordination 
model and a test bed for other parts in the country in implementing 
homeland security policies.
    Our focus today is twofold. First, we will look at how well the 
region's State and local governments are coordinating amongst 
themselves and with the Federal Government and, second, we will examine 
whether Federal homeland security dollars are being spent wisely.
    Two months ago we were reminded of the importance of homeland 
security coordination in the Nation's Capital when a small prop plane 
caused the evacuation of Federal buildings and the Congress after 
accidentally crossing into DC's restricted air space.
    Although Federal officials responded quickly to the perceived 
threat, they failed to involve or even notify District officials.
    Last week, the vulnerability of metropolitan cities was 
demonstrated by the coordinated bombings of the bus and subway systems 
in London. The London attack was horrific and senseless. I believe this 
tragedy can teach us how to better prevent, deter, and recover from a 
similar attack in the United States. If such an event were to occur in 
the District, an effective response would require the combined efforts 
of Federal, State, and local officials because DC is home to the 
Nation's Capital and adjoins two States. The coordination challenge 
that NCR officials face is more complicated than other areas of the 
country where there is less of a Federal Government presence.
    In addition, the NCR is required by DHS to share and administer 
Urban Area Security Initiative grants as a region. No single government 
has autonomous control over that funding. Reaching the necessary 
consensus between multiple jurisdictions on how best to spend the 
funding significantly compounds the work required to administer the 
grants.
    This is not the case anywhere else in the country.
    Sharing funding effectively while coordinating regional priorities 
is an exercise that other cities have not had to undertake yet.
    While the requirement of regional coordination has created 
challenges for NCR members, the NCR has a head start in creating an 
effective regional model, which is what the Department of Homeland 
Security (DHS) is now encouraging throughout the country through its 
grant awards. The DHS Interim National Preparedness Goal, released this 
March, instructs State and local governments to collaborate regionally 
through mutual aid agreements to increase capability and share costs. 
Let's not forget that the NCR began working on homeland security 
coordination and collaboration on September 11, 2001.
    Despite the significant progress made in the past four years, I 
have some concerns about the level of coordination in the National 
Capital Region.
    First, it does not appear that the District of Columbia Office of 
Homeland Security has a system in place to track homeland security 
funding being spent in DC and the surrounding counties.
    In response to a recommendation made in a May 2004 Government 
Accountability Office (GAO) report, the Homeland Security Office 
recently established a database to centralize all Urban Area Security 
Initiative (UASI) funded projects being undertaken by the NCR. However 
as GAO will testify today, this database does not hold any information 
on other homeland security grant funding being spent in the region.
    How can the NCR ensure that its UASI funding is being well spent if 
there are no consolidated records on other ongoing homeland security 
programs in the region?
    Second, the NCR has yet to develop a strategic plan for homeland 
security in the region.
    Homeland security grants are not being spent to meet a set of 
cohesive, overall objectives. Instead, each project is considered on 
its individual merit. While this system may ensure that grant funds are 
spent on legitimate purposes, it does not enable the region to use 
grant funding efficiently to reduce vulnerability gaps and build 
capability.
    The NCR members are working on a strategic plan for the region but 
have not said when it will be finalized and implemented.
    I recognize that the NCR is working with limited staff and a number 
of pressing priorities. However, without a strategic plan, the NCR 
cannot effectively leverage the millions of Federal dollars awarded to 
the region every year for homeland security.
    Third, as the recent small plane incident shows, there are serious 
gaps in the coordination and communication between DC officials and the 
Federal Government. Mayor Williams, who is responsible for the District 
of Columbia and all those who live and work here, said he was not 
notified until after the event was almost over.
    This failure of communication may be attributed to any number of 
different missing links: The DC police officer stationed at the 
Homeland Security Operations Center was not informed of the violation 
by his HSOC colleagues because he lacks a Top Secret security 
clearance; the telephone line that connects the DC police command 
center with the Federal Aviation Administration was disconnected, and 
the Homeland Security Information Network never issued an alert to 
State and local officials.
    We cannot afford to have a layered system where every single layer 
fails.
    I know the men and women working to protect our Nation's Capital 
have a never-ending challenge before them and I recognize and commend 
them for their hard work and dedication. It is my hope that our hearing 
will assist these public servants by bringing needed attention to the 
critical work they perform.
    Thank you Mr. Chairman. I look forward to working with you on this 
and other DC oversight issues in the future.

    Senator Akaka. As the Chairman noted, we will be having a 
series of votes at 10, and I want to give our witnesses all the 
time we can, and tell you that we appreciate your presence here 
and your responses, and I look forward to the testimony.
    Thank you, Mr. Chairman.
    Senator Voinovich. We are fortunate that we have some 
excellent witnesses this morning. William Jenkins is the 
Director of Homeland Security and Justice Issues at the 
Government Accountability Office.
    George Foresman is the Assistant to the Governor for 
Commonwealth Preparedness for the State of Virginia. Thank you 
for being here.
    Dennis Schrader is the Director of Maryland Governor's 
Office of Homeland Security.
    Thomas Lockwood is the Director of the Office of the 
National Capital Region Coordination in the Department of 
Homeland Security.
    Finally, we have Edward D. Reiskin, the Deputy Mayor for 
Public Safety and Justice for the District of Columbia.
    Gentlemen, it is the custom of this Subcommittee to swear 
in all the witnesses. If you will stand, please, and be sworn 
in.
    Do you swear the testimony you are about to give this 
Subcommittee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Mr. Jenkins. I do.
    Mr. Foresman. I do.
    Mr. Schrader. I do.
    Mr. Lockwood. I do.
    Mr. Reiskin. I do.
    Senator Voinovich. Thank you.
    We will start out with you, Mr. Jenkins. I would request 
that you limit your testimony to 5 minutes, and I assure you 
that the rest of your testimony will be made part of the 
record. I do want to apologize in advance, but because of the 
limited time we have today you will probably receive questions 
from the Members of this Subcommittee in writing. We would 
appreciate your getting back to us as soon as you can with your 
written responses.
    Mr. Jenkins.

  TESTIMONY OF WILLIAM O. JENKINS, JR.,\1\ DIRECTOR, HOMELAND 
  SECURITY AND JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Jenkins. Thank you. Chairman Voinovich and Ranking 
Member Akaka, I appreciate the opportunity to participate in 
today's hearing on efforts to use Federal grants to enhance 
emergency preparedness in the National Capital Region.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Jenkins appears in the Appendix 
on page 21.
---------------------------------------------------------------------------
    A coordinated, targeted and complementary use of Federal 
homeland security grants and all other available resources for 
enhancing emergency preparedness in the region is important. 
Effectively managing and using these funds is one mean of 
achieving an important goal: The ability of first responders to 
prevent where possible, prepare for, respond to, and recover 
from terrorist attacks and other major emergency incidents with 
well-planned, well-coordinated and effective efforts that 
involve a variety of first responders from multiple 
jurisdictions.
    The Office of National Capital Region Coordination was 
created by the Homeland Security Act of 2002 to coordinate 
Federal, State and local efforts to secure the homeland in the 
NCR and to assess and advocate for State, local and regional 
resources needed in the NCR.
    Effectively managing first responder funds requires the 
ability to measure progress and provide accountability for the 
use of available funds. This requires a strategic approach to 
homeland security that includes identifying threats and 
managing risk, aligning resources to address them, and 
assessing progress in preparing for and mitigating those 
threats and risks.
    In May 2004 we reported that the NCR faced three 
interrelated challenges in managing Federal funds in a way that 
maximizes their effectiveness and minimizes inefficiency and 
unnecessary duplication of expenditures. Those were: (1) the 
lack of preparedness standards; (2) the lack of a coordinated 
region-wide strategic plan to guide expenditures; and (3) a 
readily available, reliable source of data on funds available 
to first responders in the NCR and their use.
    Without the standards, a region-wide plan and data on 
available funds and their use, it is difficult to determine 
whether NCR first responders have the ability to respond to 
threats and emergencies with well-planned, well-coordinated and 
effective efforts.
    In our May 2004 report we made three recommendations to the 
Secretary of Homeland Security that addressed these three 
interrelated challenges. The NCR has made progress in 
implementing these recommendations, but none has yet been fully 
implemented.
    Specifically, first, we recommended that the NCR develop a 
strategic plan that includes performance goals and priorities 
that could be used to guide the use of funds to enhance 
emergency preparedness in the NCR. According to the Office of 
National Capital Region Coordination, a final draft for review 
has been completed and circulated to key stakeholders, and will 
feature measurable goals, objectives, and performance measures.
    Second, we recommended that the NCR monitor the strategic 
plans implementation to ensure that funds are used in a way 
that promotes effective expenditures that are not unnecessarily 
duplicative. This cannot be done, of course, until the final 
plan is final.
    The key to implementing this recommendation is data on 
funds available in the NCR for emergency preparedness and their 
use. Currently, the NCR, through the D.C. Office of Homeland 
Security, maintains data on Urban Area Security Initiative 
funds and funds that are allocated directly to the District of 
Columbia. However, at this time it does not have uniform, 
reliable and readily available data on funds available to NCR 
jurisdictions from non-UASI grants such as the State homeland 
security grants. NCR officials recognize the need to develop a 
more systematic means of capturing information on all homeland 
security grant funds available and their use within the NCR.
    The third recommendation was to identify and address gaps 
in emergency preparedness in the NCR and evaluate the 
effectiveness of expenditures in closing those gaps. To date, 
no systematic gap analysis has been completed for the NCR as a 
whole. However, by March 2006 the NCR plans to complete a gap 
analysis using the National Emergency Preparedness Standards of 
the Emergency Management Accreditation Program.
    At some point this effort must be integrated with the 
performance standards that DHS has developed as part of its 
national preparedness goal. Since our May 2004 report, DHS has 
developed a list of 36 capabilities in terms of planning, 
training, equipment and exercises that first responders would 
need to develop and maintain to effectively prepare for and 
respond to major emergency events that would require the 
resources and participation of first responders from Federal, 
State, and local jurisdictions.
    We applaud the efforts that the NCR has made to implement 
our recommendations. We believe that fully implementing them 
will be a major step toward developing the structure, processes 
and data needed to assess and develop emergency preparedness 
capabilities in the NCR.
    That concludes my statement, Mr. Chairman. Be pleased to 
respond to any questions you or Senator Akaka have.
    Senator Voinovich. Mr. Foresman.

 TESTIMONY OF GEORGE W. FORESMAN,\1\ ASSISTANT TO THE GOVERNOR 
  OF VIRGINIA FOR COMMONWEALTH PREPAREDNESS, COMMONWEALTH OF 
                            VIRGINIA

    Mr. Foresman. Thank you. Mr. Chairman, Senator, thank you 
all for holding this hearing today, and we very much appreciate 
the opportunity to talk about the progress that has in fact 
been made in the National Capital Region.
---------------------------------------------------------------------------
    \1\ The prepared joint statement of Mr. Reiskin, Mr. Foresman, and 
Mr. Schrader appears in the Appendix on page 33.
---------------------------------------------------------------------------
    We have submitted joint written testimony on behalf of the 
Commonwealth of Virginia, the State of Maryland and the 
District of Columbia in our continuing spirit of cooperation.
    We have four goals for the Subcommittee today. First, we 
want to place our collective work in the NCR into the broader 
perspective impacted by recent history, current progress and 
future plans.
    Second, we want to help this Subcommittee, other Members of 
Congress, and most importantly, our citizens understand the 
real and tangible actions that we have taken to achieve higher 
levels of regional coordination to prevent attacks, and if 
necessary, to respond in the National Capital Region.
    Third is a desire to articulate progress by pointing to 
measurable steps that we have taken in a collaborative fashion 
with our partners at the local level, in the private sector and 
with our Federal partners that will improve the region's 
readiness, both in the context of the public and private 
sector.
    And finally, we want to reassure this Subcommittee and the 
Congress as a whole--you all are residents of the National 
Capital Region much of the time, your staff are residents all 
of the time--that we remain focused for the longer term efforts 
as we recognize that the threats that we face as a Nation, as 
region, as communities, will not diminish in the near term.
    Clearly we have made much progress, but there is one 
principle that has underscored everything that we have done 
since the tragic hours of September 11. The phenomenal 
coordination challenge that we face in the National Capital 
Region is driven by our strict adherence to the principles set 
forth in the formation of this great Nation of ours. There is 
no single person, office, level, or branch of government vested 
with the ability to direct the full range of preparedness 
activities across all others in the region. So we adhere to the 
principle that while challenging, collaboration, and 
coordination must be followed lest we undermine the very values 
of governance that America is seeking to preserve.
    What I would offer to you--and I think Mr. Jenkins has done 
a nice job of underscoring some of the issues--is it is easy to 
say that we must do a better job of coordinating regionally, it 
is phenomenally difficult to make that happen on a day-to-day 
basis, but it is a challenge that we remain committed to in the 
National Capital Region.
    The NCR presents a unique coordination challenge for those 
who protect its residents and institutions, especially from the 
threat of terrorism. Recognizing the evolving character of the 
threat and the need for new types of collaboration, we are 
working in partnership, local, State, Federal, and private 
sector, to reduce the vulnerability of the NCR from terrorist 
attacks, and to do a better job at managing the full range or 
risks that we face on a day-to-day basis.
    There is much activity occurring in many domains. Efforts 
to improve health and medical readiness are being supported by 
the U.S. Department of Health and Human Services. Actions to 
improve the military's readiness to support civil authorities 
at home here in the National Capital Region is being led by the 
Department of Defense. The Department of Homeland Security is 
one of many focal points of Federal activities that we have to 
work with across the National Capital Region, and they are of 
course focused on many areas ranging from intelligence sharing 
to border security, and clearly, Secretary Chertoff has set a 
new standard yesterday when he announced the reorganization and 
refocusing of the Department as part of the second stage 
review.
    All of these activities impact us at the local and the 
State level, and it is important that we continue to coordinate 
across the Federal family, across all branches of the Federal 
family, to ensure that we have a coordinated and seamless 
strategy for dealing with emergencies and disasters.
    You will hear from our discussions today, from my 
colleague, Dennis Schrader in Maryland, Ed Reiskin in the 
District of Columbia and Tom Lockwood from the Office of 
National Capital Region Coordination, about how regional 
coordination has been developed over the course of the past 4 
years, and how it represents a complex structure, but a complex 
structure that nevertheless is needed in our structure of 
government in this country.
    Regionalism is important to the future of managing risk in 
this country, and many of the lessons that we have learned in 
the National Capital Region are certainly applicable to other 
regions of the country.
    But we remain committed to creating an enterprise of 
preparedness in the National Capital Region that assesses the 
risks and allows us to control our destiny. At the end of the 
day, we remain committed to ensuring that we control our 
priorities, our destiny and our focus in terms of our ability 
to prepare for emergencies and disasters, including terrorism, 
and we will not allow our enemies to charge those priorities 
for us.
    At the end of the day, preparedness in the National Capital 
Region is a fundamental responsibility that all of the 
governors, the Mayor of the District of Columbia, are committed 
to, and we recognize that all emergencies and disasters, 
irrespective of where they occur, are local and State issues 
and will be dealt with by local and State officials.
    We very much appreciate the opportunity to testify today. 
My colleague, Dennis Schrader, from the State of Maryland, will 
now talk about the governance structure.

TESTIMONY OF DENNIS R. SCHRADER,\1\ DIRECTOR OF THE GOVERNOR'S 
      OFFICE OF HOMELAND SECURITY IN THE STATE OF MARYLAND

    Mr. Schrader. Thank you, Mr. Chairman, Senator Akaka. From 
the very beginning, going back almost 36 months now--that 
anniversary will be on April 5, 2002--the two governors, the 
mayor and the President's office came together around eight 
commitments to action, and this has been an evolving governance 
process. But the key to the governance process from the very 
beginning was deliberate focus on management of the program, 
and accountability for every action that we take. Having that 
kind of an accountability in a complex environment like this 
really required that the principals had their people working 
very closely together. It is a privilege for me to be working 
with my colleagues from Virginia, DC, and the Office of 
National Capital Region.
---------------------------------------------------------------------------
    \1\ The prepared joint statement of Mr. Reiskin, Mr. Foresman, and 
Mr. Schrader appears in the Appendix on page 33.
---------------------------------------------------------------------------
    Early on we determined that as resources would come into 
the National Capital Region, it had to be centrally managed, 
and we determined that the most appropriate way to handle that 
was to have the District of Columbia be the State 
administrative agency for those resources, and we are very 
pleased with the job that they have done on our behalf.
    We meet monthly face-to-face. Our principals, the governor 
and the mayor meet approximately quarterly on a variety of 
issues. Homeland security is one of them. So each of us feels a 
mutual responsibility to each other for the evolution of this 
process.
    The first 18 months was spent working hard on how to put 
the governance structure together. One of the eight commitments 
was around decisionmaking and coordination, and there was a lot 
of time spent on that, and actually, that was done before the 
Department of Homeland Security was established.
    With the establishment of the Office of the National 
Capital Region with the stand-up of the new department in early 
2003, that office evolved, but it has really taken off to a new 
level under Tom Lockwood's leadership since May 2004, and his 
energy and commitment to bringing us all together and driving 
this to a new level has been laudable, and we appreciate that, 
at least in Maryland, and the other States. I think I can speak 
for my colleague in Virginia and DC.
    We continue to focus on a day-to-day basis on project 
management. That process evolves. But also in the governance 
process we learned early on--and we had a major milestone in 
February 2004--that we needed to bring the local jurisdictions 
into the governance process, and we formally brought the chief 
administrative officers from the local jurisdictions into that 
process. And you have a document, which I will not go through, 
but that lays out the structure of how all that works, and in 
collaboration with the Emergency Preparedness Council, which 
gives us visibility for the local elected officials, the 
private sector and other regional government agencies, as well 
as the nonprofit sector.
    So this governance structure was agreed upon in February 
2004, and we have been exercising that since then, and I will 
be honest with you, we have had a lot of bumps and grinds, as 
any major process like this, but I believe the commitment, the 
week-in and week-out, we actually have a conference call every 
Friday at noon that we have together, and it is very rare that 
all of the folks from the principal team are not on that call.
    So the last thing I will leave you with is that we also 
have a bottoms-up process within the CAO group. They have 
visibility on all what are called the emergency support 
functions. The local emergency responders from all the various 
communities, the 15 emergency support functions, and that is 
managed by the chief administrative officers with the help of 
the Washington Council of Governments, and that is a very 
complex process.
    Let me just leave you by saying we have had a number of 
very important milestones. We have bought 1,000 800-megahertz 
radios that are shared within the region and can be deployed at 
a moment's notice. That was a very major improvement. We have 
interoperability teams that are working. We have bought 9,000 
sets of turnout gear for all the fire and emergency medical 
responders in the region, and we have reached out to the 
physical disabilities community. We have a citizen education 
program under way, and we are focused also on critical 
infrastructure protection and training and exercises.
    I will stop there, but I will say that our governance 
process is evolving, it is working, and it is very focused on 
accountability and management. Thank you, sir.
    Senator Voinovich. Mr. Lockwood, how long have you been 
with DHS?
    Mr. Lockwood. Since about May 2004, so I am coming up past 
my 1-year anniversary.

    TESTIMONY OF THOMAS J. LOCKWOOD,\1\ DIRECTOR, OFFICE OF 
   NATIONAL CAPITAL REGION COORDINATION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Lockwood. Thank you for allowing us to come. Again, 
this work that we do is truly a collaborative effort between 
Federal, State, local government, and the private sector, 
including our not-for-profit community and our regional 
partners. So again, I want to recognize all of the partners 
that we have in the region.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Lockwood appears in the Appendix 
on page 64.
---------------------------------------------------------------------------
    These partners have been significant in putting together 
and planning regionally to lead the Nation in that concept. We 
continue to work closely, and in the near term, we very much 
intend to come out with a regional strategic plan, one that is 
based on all of those partners, their comments, their concerns, 
about this region, going back almost to 2003, at which time we 
were in the State of Maryland as part of the Maryland Homeland 
Security team very much coordinated even back then with Mike 
Burns. We appreciate the work that Mike and the White House has 
done to lay out this ground work.
    We use the UASI grant really as a tool to begin integrating 
the region. We had three critical points at that time: To 
prevent terrorist attacks in the NCR, to reduce the NCR's 
vulnerability to terrorism, and to minimize the damage and 
recover from attacks that do occur.
    This framework of cooperation, this framework of true 
regional capability, of committing the resources to regional 
initiatives, really was the ground work for where we are at 
today, so that was a great move on Congress' part to allow 
those resources to be committed to regions.
    But as indicated by GAO, there was much more work to be 
done. This was a first step. The next step was really to bring 
in the concept of standards, performance measures, to really 
articulate a common regional strategic plan that integrates 
Federal, State, and local spending to prioritize as a 
community, and we have aggressively followed up on those 
recommendations.
    Again, the need for this plan again is to establish 
coordinated regional goals and priorities for the enhancement 
of homeland security and first response capabilities within the 
NCR to guide, integrate and ensure efficient spending of 
security dollars, of grant dollars, of budgeted dollars in 
resources, and again, to provide a means for actual 
improvements that are being made.
    We also have some key principles that we developed that is 
going to guide us, and probably the most important one, 
strengthening regional coordination among all partners to gain 
synergy while sustaining jurisdictional authority and enhancing 
capabilities. That truly means we are working as a team.
    A couple other key points: To prepare for all hazards 
including manmade and naturally occurring emergencies and 
disasters, so that this is part of our day-to-day practices and 
expandable in the event of an emergency. We have another key 
piece in this region, to foster a culture of collaboration, 
respect, communication, innovation, and mutual aid among all 
the homeland security partners. When we talk about these 
partners again we have six forms of constitutional government 
that we deal with every day, the Commonwealth of Virginia, the 
State of Maryland, the District of Columbia, with the 
Legislative Branch, the Judicial Branch, the Executive Branch, 
how do we coordinate together as a team.
    We are developing and we will be publishing shortly the 
National Capital Region Homeland Security Plan. This is not a 
invented plan. This builds upon all the previous work over the 
past several months, the work that the police chiefs, fire 
chiefs, emergency management communities in the region, pulling 
all of that work together to meet the intent of where GAO was 
commenting that we really want to have better coordination and 
visibility amongst the funding streams. A key step is building 
those performance measures, and this regional assessment that 
we have done, both across the region and with jurisdictions, 
will be a key piece in that.
    Thank you very much.
    Senator Voinovich. Thank you, Mr. Lockwood. Mr. Reiskin.

  TESTIMONY OF EDWARD D. REISKIN,\1\ DEPUTY MAYOR FOR PUBLIC 
        SAFETY AND JUSTICE FOR THE DISTRICT OF COLUMBIA

    Mr. Reiskin. Good morning. Thank you. My name is Ed 
Reiskin. I am the Deputy Mayor for Public Safety and Justice 
for the District of Columbia. I appreciate the opportunity as 
well to round out this discussion with my partners from 
Maryland, Virginia, and the Department of Homeland Security.
---------------------------------------------------------------------------
    \1\ The prepared joint statement of Mr. Reiskin, Mr. Foresman, and 
Mr. Schrader appears in the Appendix on page 33.
---------------------------------------------------------------------------
    I am going to talk about funding, which has been an area of 
focus for us and I know an area of interest for you. One of the 
major sources for regional homeland security efforts, sources 
of funding since 2003 has been the Urban Area Security 
Initiative, fondly known as UASI. In the National Capital 
Region it has been one of our major areas around which we have 
coordinated and worked together as a region.
    As Dennis mentioned, the District of Columbia serves as the 
administrator or State administrative agent for the region's 
homeland security funds through UASI, and to that end we have 
established an Office of Homeland Security within the Executive 
Office of the Mayor to perform that function. The purpose of 
the Office is through agreement with all the participants, to 
provide a comprehensive grant oversight program for the entire 
region, and we collectively have made it a priority of that 
office to make certain that all UASI grant funds are expended 
effectively, efficiently, timely, and consistent with grant 
guidelines and desired outcomes.
    This Office serves as the reliable and primary source of 
information on the Homeland Security grant programs, including 
criteria used to determine spending priorities and actual 
expenditures. Since the establishment of this Office, there 
have been a number of benefits that creation of this Office has 
provided to the region.
    As outlined in the table, Table 1\2\ in the testimony we 
submitted for the record, the Office is currently managing UASI 
grants totaling over $170 million. Over 90 percent of these 
funds allocated to the region since 2003 have been either 
expended or obligated, as detailed in Table 2\3\ in the 
testimony.
---------------------------------------------------------------------------
    \2\ Table 1 appears in the Appendix on page 46.
    \3\ Table 2 appears in the Appendix on page 47.
---------------------------------------------------------------------------
    Despite that relatively high number, we do acknowledge that 
the level of spending is relatively low when measured solely on 
a grant expenditure basis. However, it is important to note 
that there are no significant dollars that have not been 
programmed. They are not technically expended. Virtually every 
dollar is tied to a project that is currently in progress of 
completed.
    However, funds are only deemed expended when the goods or 
services have been received, the invoices have been received 
and processed, accounting entries are completed within 
financial systems and quarterly reports sent to the Federal 
Government.
    We, therefore, believe that basing an evaluation of any 
region's homeland security spending purely on its rate of 
official expenditure is not the best measure of its 
effectiveness. Analysis of funds allocation and progress on 
each project better provides an evaluation of how and whether 
the funds are being spent. An analysis of the outcomes 
ultimately will determine if they have been spent wisely.
    The reason why our spending rate is low, however, compared 
to other UASI regions, is that following the receipt, 
programming and expenditure of congressionally appropriated 
funds in 2002, the region was very deliberate in its execution 
of the then-new homeland security grant program. As you have 
heard, we have a lot of stakeholders and a complex system in 
which we work, and determining how to best use these valuable 
grant resources takes time, and particularly when we first came 
together as part of this regional process, we needed to ensure 
that we had all of the stakeholders involved and systems in 
place to ensure a viable process.
    Nevertheless, and with the help of recommendations from the 
GAO, we constantly strive to improve our administrative 
processes and have done so, and in the coming year we will 
focus the Office on strengthening the region's overall 
management reporting mechanisms with regard to these grants.
    We are currently taking several steps to develop these 
enhanced mechanisms such as building program management 
capacity to assist with managing and monitoring the region's 
homeland security grant activities and the development of a 
regional web portal to create a collaborative environment for 
stakeholders throughout the region.
    So we, therefore, believe we are on a good track from an 
administrative perspective to provide the support needed for 
this complex process to ensure that we manage the use of these 
funds to achieve the outcomes that will make the region safer 
and more secure.
    So with that, you have heard about how we are organized, 
how we have strategized and managed ourselves to work towards 
the achievement of our homeland security vision for our unique 
and beloved region, and while we are unique in many respects, 
we hope that there are lessons learned for other areas of the 
country so that they, too, can transcend political 
jurisdictional boundaries to make their regions, and therefore 
the country, safer and more secure.
    That concludes our statement and we welcome the opportunity 
to discuss this further.
    Senator Voinovich. Thank you very much. In my opening 
statement there were references to some areas that I have 
concern with. In particular, I am referring to the first Cessna 
that flew into the restricted air space, forcing the evacuation 
of the Capitol. We later learned that it took 30 minutes for 
that information to be shared with the District of Columbia, 
the mayor, and the chief of police. I suspect that you have 
remedied that situation?
    Mr. Reiskin. We have.
    Senator Voinovich. I want to say to all of you that I am 
impressed with your testimony today. As a former governor, and 
especially in the Cincinnati area where we have three States 
that come together, I know how difficult it is to get everybody 
together. The fact that you have all appeared here and 
presented joint testimony, is an indication that you recognize 
in terms of governance and working together, how important it 
is that you continue that. I am very pleased to hear that you 
talk quite often. I am also pleased to see that each of you in 
your own respective jurisdictions, particularly the States, 
have your own various local government groups that you stay in 
touch with.
    I would be interested in knowing what kind of a mechanism 
you have put in place to allocate resources. I know in my State 
of Ohio, there is a significant amount of grant money coming 
into the State. Allocating these funds in an effective and 
efficient manor is difficult. How do you go about allocating 
those funds in this region?
    Mr. Foresman. Mr. Chairman, the easy way would be to simply 
allocate it on a population based formula, but we chose very 
early in the process not to do that. Essentially, the process 
works like this: We take a broad category, a broad pot of 
dollars, if you will, in terms of the UASI grant availability. 
Throughout this process we have continued to identify the needs 
at the local level, statewide, region-wide, and essentially 
using the ESF structure, the various support functional 
activities, proposals permeate up through those ESF functional 
areas, they come forward to the chief administrative officers, 
who then rack them and stack them and prioritize them. They 
subsequently come forward to the senior policy group----
    Senator Voinovich. Who are the chief administration 
officers?
    Mr. Foresman. County managers, city managers, that type of 
thing, comes forward to the senior policy group. And we have 
had a little bit of a variation on it----
    Senator Voinovich. Who is the senior policy group?
    Mr. Foresman. That would be the six representatives of the 
two governors and the mayor. It is typically the Homeland 
Security Adviser and the State Emergency Management Director, 
as well as two representatives from the Office of National 
Capital Region.
    Senator Voinovich. Who staffs that for you?
    Mr. Foresman. We staff it using part of the administrative 
funds. We staff it through the district's Office of Homeland 
Security through contract support to provide----
    Senator Voinovich. You are using the EMPG funds then to do 
that.
    Mr. Foresman. No, sir, using UASI funds.
    Senator Voinovich. OK.
    Mr. Foresman. But what it essentially provides for is a 
distributed process that allows those same key decisionmakers 
that make budget decisions at the local level, chief 
administrative officials, to make budget decisions with regard 
to Federal allocations. Simply put though, getting 12 local 
jurisdictions, say the fire community, for instance, it 
requires getting 12 fire chiefs to agree on spending priorities 
within the fire discipline across local jurisdictions and 
appropriate State agency folks. It is not easy. It is new. But 
it is working thus far.
    Senator Voinovich. When I was Mayor of Cleveland it was 
difficult to get anybody together. Since September 11, things 
have changed. Because of the initiative that we have taken on 
the Federal level in terms of providing funds, it is amazing 
the coordination and cooperation that we are seeing in the 
States. Good people are getting together and backing off their 
turf, trying to get the job done.
    One of the things that I think people fail to realize is 
that here in the District we are obviously more vulnerable than 
other places in the country. As Senators, we have men and women 
that work for us. Many of us are here during the week and go 
home on the weekends. The people who work in our offices live 
in this region and are at more risk than many Americans. The 
Capitol complex has been evacuated seven times. During the 
Anthrax attack, we were out of our office for 4 months. I think 
that it should be comforting to some of the moms and dads and 
grandmas and grandpas of these people, that you all are working 
together. You have a heavy responsibility, and I am grateful 
that you are moving in the right direction.
    Mr. Lockwood, do you have enough people over in your shop 
to get the job done for you? How many do you have, Mr. 
Lockwood?
    Mr. Lockwood. Currently in the office I have a Deputy, Ken 
Wall, who is one of the best deputies in DHS. We have EA 
support and we have some detailees in the office.
    Senator Voinovich. Do all of you feel that the ONCRC is 
doing a good job with coordination in the region? Mr. Lockwood, 
is your office implementing a structure to track and coordinate 
the funds coming into the region? Does this structure answer 
the concerns and questions that GAO has asked?
    Mr. Lockwood. Yes, the structure that we have put into 
place right now. We put in the organizational structure of the 
leaders so that they are looking at both the local spending and 
their jurisdictional spending. Now as we are building out the 
actual management mechanisms, and the people to actually do the 
work, the infrastructure, the databases will be compiled to 
reflect that integrational process.
    Senator Voinovich. And you are also working on the gaps 
that you might perceive that are out there?
    Mr. Lockwood. There is two pieces of this. At the national 
level through DHS activities, through Presidential Directive 7 
and 9 that are asking for the establishment of baselines, DHS 
is very actively establishing those. There is a preliminary 
document statement have gone out. They are working with their 
State and local partners now. And the goal for ESF--check 
that--for Homeland Security Presidential Directive No. 7, 
critical infrastructure piece, they are looking to finalize 
that, I believe fall of this year.
    And for Homeland Security Presidential Directive No. 8, 
emergency preparedness standards and guidelines, again, this 
fall. There is a lot of interaction across the Nation with the 
State Homeland Security Emergency Management first response 
communities.
    Mr. Foresman. Mr. Chairman, if I might, I would feel remiss 
if I did not offer a State perspective, having been in the 
region since prior to September 11, having looked at a lot of 
the national issues. Congress' intent in creating the Office of 
National Capital Region Coordination--which I, as a State 
official, did not particularly agree with on the front end, but 
I have now seen the merit in that--is not appropriately 
resourced to accomplish the mission that you all have asked 
them to accomplish. I say that irrespective of whether Tom 
Lockwood or Mike Burn is occupying the seat in there, but it is 
a phenomenal challenge. I would offer to you that we have 
evacuated the Capitol, but providing that level of facilitation 
and coordination between the District, the two States and the 
U.S. Congress, the Judiciary and the Executive Branch is a 
phenomenal undertaking, and there are insufficient resources 
just to coordinate the Federal piece of it amongst themselves, 
much less with the State and local partners.
    Senator Voinovich. Thank you for your candor. Senator 
Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. I agree 
with you, Mr. Chairman, that what we have heard is pleasing to 
our ears, and you have indicated that you have been working 
hard. I am glad to hear the words being used, 
``accountability,'' ``commitment,'' ``coordination,'' putting 
together government structure, a framework, and even maybe 
another step would be to set standards. And so you are working 
together since, I believe, 2004.
    I would be interested in hearing from any member of the 
senior policy group who could explain to this Subcommittee how 
you share information on ongoing homeland security projects, 
and in your respective jurisdictions, and whether this is a 
formal or informal process. Mr. Schrader.
    Mr. Schrader. One of the things that we are most concerned 
about in Maryland particularly has been the notion that we have 
one State and we talk frequently with our local jurisdictions 
to make sure that we have an integrated program within the 
State that then coordinates back with the National Capital 
Region.
    Just to give you an example, we have a fusion center in 
Maryland, which we call the Coordination and Analysis Center. 
We are very careful to make sure that all the jurisdictions in 
Maryland are tied into that, but then we are working with the 
Washington Field Office, Virginia, and DC, to begin to look at 
how do we integrate those efforts. That is just one example.
    We have got a critical infrastructure protection program in 
Maryland that we work very closely with the FBI and the 
Department of Justice, as well as DHS. We have got a joint 
committee that looks at how do we coordinate the three 
jurisdictions with the Federal Government on that critical 
infrastructure.
    So it is on a program by program basis, at least in 
Maryland, and I know my colleagues are working with us. 
Similarly, we are creating focus on that so we make sure that 
we leverage the resources. So if we are investing in critical 
infrastructure protection in Maryland as a State, we want to 
make sure that we leverage those resources back to the NCR so 
that there is collaboration.
    So those are just a couple of examples.
    Mr. Lockwood. Within the National Capital Region following 
September 11, the Executive Branch, through the Chief of Staff, 
had reached out and created a group called the Joint Federal 
Committee. We meet once a month. It includes members of the 
Federal family, Executive, Legislative, and Judicial. Very 
similar how we get together as a team once a month, the Joint 
Federal Committee gets together once a month to sort out 
clearinghouse issues of how do we coordinate issues, specific 
issues of coordination of interest and to ensure that our 
Federal family is being linked back over to State and local 
efforts as well. When I say our Federal family, I do mean all 
three branches of the Federal Government.
    A key piece that I believe everyone here at this table 
really feels very sincerely is we all feel strongly about this 
region, its institutions, about our residents, and about our 
guests. We also see that there is a responsibility on us to 
talk to other regions of the Nation, and one of the pieces that 
I can see is very active coordination with our State partners 
back over with other regions of the Nation, and trying to make 
what we are doing here available to other people. Most of those 
are informal discussions. Some are through formal activities 
such as the National Governors Association, but for example, in 
your home State of Hawaii, as seeing what we are doing here, 
General Lee wanted to know more about Smart Card Initiatives to 
help management of first responders working through Honolulu 
County. There has been a lot of coordination now to see what we 
are doing and how we might leverage this with other areas. 
Again, this is very preliminary pieces, mostly informal, some 
formal meeting structures.
    Senator Akaka. Well, to any of you, Mr. Jenkins from GAO 
has testified that NCR should systematically track non-UASI 
grant funds. Do you agree with this recommendation, and if you 
do, why or why not? Mr. Foresman.
    Mr. Foresman. Senator, the one thing I would offer is I 
track every dollar in Virginia on a day-to-day basis, as do my 
colleagues in Maryland and Virginia, so the decisions that are 
made are informed by what we are doing with a multitude of 
grant funds ranging from the bioterrorism money through CDC, 
funds that are coming down through a variety of other Federal 
sources, as well as the more than $500 million annually that 
the State contributes to a variety of preparedness type 
activities, whether it is law enforcement, fire, or emergency 
medical services.
    I think that part of the issue becomes to what degree is 
that necessary and to what degree does that clarify or cloud an 
issue? And Mr. Jenkins and his staff have been phenomenal in 
working with us and giving us great ideas as we have worked 
forward. But a perfect solution, it is easy to articulate a 
perfect solution, but I am not sure that bringing my daily 
accounting sheets and giving them to my partners in Maryland 
and DC is going to improve our decisionmaking, because as we go 
through these collaborative discussions, Dennis will say, ``Are 
we going to do this issue?'' And I will say, ``Well, here is 
how we are addressing it in Virginia.''
    And frankly, I think we have to be careful that, as all of 
the witnesses have testified today, that we protect the 
uniqueness and the individuality of local governments and State 
Governments while providing the appropriate level of 
transparency, and there are political dimensions and practical 
dimensions.
    Senator Akaka. Thank you, Mr. Chairman. My time has 
expired. But may I ask Mr. Jenkins whether he has any comments 
to make on that?
    Mr. Jenkins. Actually I do, because I am a little bit 
puzzled by the response. We have been told that they are going 
to do that and that they agree with it, and as a matter of 
fact, in Mr. Reiskin's testimony May 16 before the D.C. City 
Council he said specifically that: ``in the coming year focus 
will extend beyond the UASI grant program to include 
strengthening of the region's overall management and reporting 
mechanisms. We are going to be developing a regional web portal 
to create a collaborative environment for NCR stakeholders. The 
portal will serve as an information management tool for 
accessing and sharing regional relevant data to include 
comprehensive information on the availability and spending of 
Federal grants in the NCR, regional priorities for determining 
future spending of those funds.''
    So I am a little bit puzzled by the response, given this, 
and the fact that we have been told that they are going to do 
it.
    Mr. Reiskin. If I could try to clarify. Our focus within 
the region and within our Homeland Security Office that serves 
as the administrator, has largely been, particularly when DHS 
stood up, has been centered around the UASI grant fund because 
that was the big gorilla on the table. That is where our focus 
has been, but as I had indicated in my testimony both here and 
to the D.C. City Council, we recognize that the UASI program is 
just one funding source and one part of the activity that our 
overall strategy needs to address, some of which are non-
funding issues, they are policy and coordination issues.
    So through the development of the regional strategy that is 
currently taking place, that will provide a framework within 
which we make decisions based on UASI, decisions within which 
the States will individually make decisions based on their 
State Homeland Security grant programs, Health and Human 
Services grant programs, as well as policy, operations, 
coordination decisions.
    We most certainly want our office to be able to provide 
for, on a regional level, relevant data, and certainly all data 
that we are responsible for within our office on behalf of the 
region, we intend to share and make available.
    We have not worked through the details of which State grant 
fund programs from Maryland, or Virginia we would include as 
part of that regional information. We would most certainly 
include that which we are responsible for. We have begun 
meeting through the convening of the Department of Homeland 
Security's Office of Domestic Preparedness with the State 
administrative agents of the whole region, including even 
beyond Maryland and Virginia, to start coordinating and sharing 
information, and we will work towards providing as much useful 
information as we can without overloading folks with more data 
than they can use.
    I would finally echo George's statement that throughout the 
process at all levels, from the region's fire chiefs getting 
together to the region's chief administrative officers getting 
together, to us at the State level getting together, we bring 
with us and are informed by our knowledge of all of the many 
activities both from Federal funds, local funds and other 
policy issues that are happening in our respective 
jurisdictions.
    Senator Akaka. Thank you, Mr. Chairman.
    Senator Voinovich. Thank you. Senator Dayton.
    Senator Dayton. We are going to have time, Mr. Chairman? 
You have enough seniority and majority to--I will be 
comfortable walking out with you.
    Senator Voinovich. We are going to wrap it up.
    Senator Dayton. I have one more question mainly.
    Senator Voinovich. Sure.
    Senator Dayton. Given the complexity of the government 
arrangements--and I certainly understand those, appreciate 
those difficulties--but in an emergency situation, it seems 
that complexity becomes difficult because of human nature and 
the like. In both of the evacuations, one the Chairman 
mentioned, the other a year before when the Governor of 
Kentucky came in on a private plane without an operating 
transponder, and from what I recall reading, the FAA had that 
information, he communicated that to others including the 
Capitol Police, and once again we were evacuated.
    In both instances the response of the Capitol Police was 
heroic, and we were evacuating as quickly as feasible. But if 
either of those planes had been a hijacked plane by a terrorist 
organization, it would have crashed into the Capitol before 
hundreds, if not thousands of people could have gotten out. Do 
we need to have one overriding agency, whoever that is, in 
charge of this and able to make all necessary decisions--you 
are shaking your head--so that we can get an immediate response 
when one is called for?
    Mr. Foresman. Senator, in my estimation, no. Simply put, we 
cannot do it one way in the National Capitol Region and a 
different way in the remainder of the Nation because we are in 
fact one Nation, and we have to have one process, one 
structure, if you will, concept in terms of how we deal with 
emergencies and disasters.
    One thing I would point to is many of the systems that were 
put in place--and I was here on September 11--many of the 
systems put in place in the immediate days and weeks and months 
in the aftermath of September 11 were done so in a very 
reactive fashion. They were done so without necessarily a great 
deal of ability for thoughtful analysis, collaboration among 
local, State, and Federal officials. They were well 
intentioned, and they were the best that we could do at the 
time.
    I think the level of maturity that we have seen in the 
National Capital Region--and we get better with every event--
tells me that we are in fact getting where we need to be. Are 
we there yet? Absolutely not. Are we ever going to be 100 
percent risk free? No, we are not.
    But from an operational perspective, I think the level of 
cooperation and coordination is vastly improved over what it 
was during the anthrax attacks in 2001, and I frankly think 
that under the structure of governance, you cannot have one 
agency that is going to be in charge. It is more important to 
make sure that people who are in charge of specific pieces are 
doing their job, and that we have got the collaborative and 
coordination mechanisms in place to make sure that it is all in 
one game plan.
    Senator Dayton. Anybody else, given our shortage of time? I 
see a couple of nodding heads. Does anybody have a significant 
disagreement with that?
    Mr. Lockwood. Not a disagreement, but actually an 
expansion.
    Senator Dayton. Do we have time, Mr. Chairman, for an 
expansion? I defer to you.
    Senator Voinovich. Yes. Mr. Lockwood, please respond and 
then we will adjourn.
    Mr. Lockwood. Through the National Capital Region 
Coordination Center, where you have multiple agencies now 
engaged 24 hours a day, 7 days a week, looking at the air 
picture, this is now much better coordinated after May 11. Each 
incident that happens, each activity that happens in the 
region, we try to learn from those activities and fold those 
back in. So the lesson learned from May 11 have already been 
incorporated. And again, a key piece of this is as the Federal 
Government takes activities out into their State or local 
government, there has to be active coordination and 
communication with their partners.
    Senator Voinovich. A symbiotic relationship is essential 
for all of you to be successful and achieve your goals. The 
more you work together and the more you coordinate, the better 
off this region will be. As I said earlier, I want to 
congratulate you on the effort that you are making.
    Mr. Jenkins, I really appreciate GAO's oversight over this 
issue, and I am sure that your work has been very helpful to 
everyone here. I am hoping that when we get together in the 
next 6 months, that we will be talking about how the strategic 
plan is completed, and some of the issues that Mr. Jenkins has 
raised no longer exist.
    Again, thank you very much for your work on behalf of this 
region of the country for us and for the people that work with 
us.
    The hearing is adjourned.
    [Whereupon, at 10:22 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T3158.001

[GRAPHIC] [TIFF OMITTED] T3158.002

[GRAPHIC] [TIFF OMITTED] T3158.003

[GRAPHIC] [TIFF OMITTED] T3158.004

[GRAPHIC] [TIFF OMITTED] T3158.005

[GRAPHIC] [TIFF OMITTED] T3158.006

[GRAPHIC] [TIFF OMITTED] T3158.007

[GRAPHIC] [TIFF OMITTED] T3158.008

[GRAPHIC] [TIFF OMITTED] T3158.009

[GRAPHIC] [TIFF OMITTED] T3158.010

[GRAPHIC] [TIFF OMITTED] T3158.011

[GRAPHIC] [TIFF OMITTED] T3158.012

[GRAPHIC] [TIFF OMITTED] T3158.013

[GRAPHIC] [TIFF OMITTED] T3158.014

[GRAPHIC] [TIFF OMITTED] T3158.015

[GRAPHIC] [TIFF OMITTED] T3158.016

[GRAPHIC] [TIFF OMITTED] T3158.017

[GRAPHIC] [TIFF OMITTED] T3158.018

[GRAPHIC] [TIFF OMITTED] T3158.019

[GRAPHIC] [TIFF OMITTED] T3158.020

[GRAPHIC] [TIFF OMITTED] T3158.021

[GRAPHIC] [TIFF OMITTED] T3158.022

[GRAPHIC] [TIFF OMITTED] T3158.023

[GRAPHIC] [TIFF OMITTED] T3158.024

[GRAPHIC] [TIFF OMITTED] T3158.025

[GRAPHIC] [TIFF OMITTED] T3158.026

[GRAPHIC] [TIFF OMITTED] T3158.027

[GRAPHIC] [TIFF OMITTED] T3158.028

[GRAPHIC] [TIFF OMITTED] T3158.029

[GRAPHIC] [TIFF OMITTED] T3158.030

[GRAPHIC] [TIFF OMITTED] T3158.031

[GRAPHIC] [TIFF OMITTED] T3158.032

[GRAPHIC] [TIFF OMITTED] T3158.033

[GRAPHIC] [TIFF OMITTED] T3158.034

[GRAPHIC] [TIFF OMITTED] T3158.035

[GRAPHIC] [TIFF OMITTED] T3158.036

[GRAPHIC] [TIFF OMITTED] T3158.037

[GRAPHIC] [TIFF OMITTED] T3158.038

[GRAPHIC] [TIFF OMITTED] T3158.039

[GRAPHIC] [TIFF OMITTED] T3158.040

[GRAPHIC] [TIFF OMITTED] T3158.041

[GRAPHIC] [TIFF OMITTED] T3158.042

[GRAPHIC] [TIFF OMITTED] T3158.043

[GRAPHIC] [TIFF OMITTED] T3158.044

[GRAPHIC] [TIFF OMITTED] T3158.045

[GRAPHIC] [TIFF OMITTED] T3158.046

[GRAPHIC] [TIFF OMITTED] T3158.047

[GRAPHIC] [TIFF OMITTED] T3158.048

[GRAPHIC] [TIFF OMITTED] T3158.049

[GRAPHIC] [TIFF OMITTED] T3158.050

[GRAPHIC] [TIFF OMITTED] T3158.051

[GRAPHIC] [TIFF OMITTED] T3158.052

[GRAPHIC] [TIFF OMITTED] T3158.053

[GRAPHIC] [TIFF OMITTED] T3158.054

[GRAPHIC] [TIFF OMITTED] T3158.055

[GRAPHIC] [TIFF OMITTED] T3158.056

[GRAPHIC] [TIFF OMITTED] T3158.057

[GRAPHIC] [TIFF OMITTED] T3158.058

[GRAPHIC] [TIFF OMITTED] T3158.059

[GRAPHIC] [TIFF OMITTED] T3158.060

[GRAPHIC] [TIFF OMITTED] T3158.061

[GRAPHIC] [TIFF OMITTED] T3158.062

[GRAPHIC] [TIFF OMITTED] T3158.063

[GRAPHIC] [TIFF OMITTED] T3158.064

[GRAPHIC] [TIFF OMITTED] T3158.065

[GRAPHIC] [TIFF OMITTED] T3158.066

[GRAPHIC] [TIFF OMITTED] T3158.067

[GRAPHIC] [TIFF OMITTED] T3158.068

[GRAPHIC] [TIFF OMITTED] T3158.069

                                 <all>

</pre></body></html>
